June 30, 2014

The Honorable Patrick T. McHenry
Chairman
Subcommittee on Oversight and Investigations
Committee on Financial Services
2129 Rayburn
U.S. House of Representatives
Washington, DC 20515

Dear Chairman McHenry:

In your January 29, 2014, letter to the Office of Inspector General (OIG), you requested we
evaluate the Consumer Financial Protection Bureau’s (CFPB) headquarters renovation budget.
The request letter states that the renovation budget for the CFPB’s headquarters increased from
$55 million to more than $95 million. The request letter also notes that the CFPB later published
year-to-date expenses for building improvements of $150,806,000 ($150.8 million). 1 To address
the issues in the request letter, we evaluated, with respect to the CFPB’s headquarters renovation
project, (1) the budgeting and approval process, (2) the scope and justification for estimates, and
(3) the use of competitive procedures. Details on our scope and methodology are presented in
attachment 1. We provided officials at the CFPB with a draft of this letter, and we considered the
CFPB’s comments as we prepared the final letter.

This letter is intended to address the specific issues contained in the request letter. We are
conducting additional work that will be included in a subsequent report to the CFPB, and we will
provide a copy of that report to the subcommittee when completed. This additional work
includes additional cost analysis and benchmarking, as well as further review of related CFPB
processes.




1.	 The $150.8 million figure is included in a table that breaks out spending by expense category in the CFPB’s
    Report of the Consumer Financial Protection Bureau Pursuant to Section 1017(e)(4) of the Dodd-Frank Act,
    December 30, 2013. The report states that the amounts in the table reflect obligations incurred during the fiscal
    year and include some upward adjustments to prior-year obligations. CFPB policy states that an obligation
    refers to a binding agreement that will result in financial outlays, either immediately or in the future.
The Honorable Patrick T. McHenry                           2	                                       June 30, 2014


Background

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank Act), enacted
July 21, 2010, 2 established the CFPB as an independent bureau within, but autonomous from, the
Federal Reserve System. The Dodd-Frank Act prescribes that a presidentially appointed,
Senate-confirmed Director is to lead the CFPB. Prior to the appointment of a CFPB Director, 3
the Dodd-Frank Act assigned to the Secretary of the Treasury certain CFPB functional
responsibilities. 4 The Secretary delegated this interim authority to the Special Advisor to the
Secretary and to other U.S. Department of the Treasury (Treasury) officials who worked to stand
up the CFPB.

On February 18, 2011, Treasury announced that the future permanent headquarters of the CFPB
would be located at 1700 G Street NW, Washington, DC. The Special Advisor to the Secretary
posted a similar announcement on the CFPB’s website. Both announcements noted that major
building renovations were needed to use the space more efficiently and to update the building to
meet current energy and environmental standards. 5


1700 G Street NW Building

The building at 1700 G Street NW had been used by the Office of Thrift Supervision (OTS) as
its headquarters. However, when the Dodd-Frank Act dissolved OTS, its interests in the building
transferred to the Office of the Comptroller of the Currency (OCC) effective July 21, 2011. Prior
to the building’s transfer to the OCC, a Treasury official, acting on behalf of the CFPB, signed a
letter of intent with the OCC on January 4, 2011, for the CFPB to occupy the building. The
major points of the letter include the following:

     •	 Assuming that ownership of 1700 G Street NW transferred to the OCC on July 21, 2011,
        the CFPB would lease the entire building from the OCC as is.




2.	 A detailed timeline of major events discussed in this letter is presented in attachment 2.

3.	 The first Director of the CFPB was appointed by the President on January 4, 2012, and confirmed by the Senate
    on July 16, 2013.

4.   Until a CFPB Director was in place, section 1066(a) of title X of the Dodd-Frank Act granted the Secretary of
     the Treasury the authority to carry out CFPB functions found in sections 1061 and 1063 under subtitle F of
     title X.

5.	 We were informed by the former executive in charge of the Securities and Exchange Commission’s (SEC)
    Office of Administrative Services that an individual from the CFPB, whom she believes was on loan from
    Treasury, inquired about surplus SEC space for the CFPB. Although this former Office of Administrative
    Services executive could not recall the timing, she categorized these discussions as preliminary and noted that
    the CFPB was in the early stages of its establishment and did not have a good understanding of its requirements.
    This official stated further that when she was approached a second time, some of the surplus SEC space had
    already been leased and the remainder was to be turned over to the U.S. General Services Administration.
The Honorable Patrick T. McHenry                         3	                                        June 30, 2014


    •	 The OCC and the CFPB would mutually agree on the terms and conditions of the lease
       for the building and on a rental payment at a market rate, including a market escalation
       over the term of the lease.
    •	 Responsibility for the existing leases with retail tenants and the future disposition of the
       retail space would be addressed prior to lease execution.

The CFPB moved into the building on October 1, 2011, under an interim agreement with the
OCC executed on July 21, 2011. On February 10, 2012, the U.S. General Services
Administration (GSA) provided the OCC with a delegation of authority to charge rent for the
building, 6 and on February 17, 2012, the OCC and the CFPB entered into an occupancy
agreement. The agreement includes terms that the CFPB (1) will pay fair market rent, (2) is
responsible for the cost of any building improvements, (3) will obtain the OCC’s approval prior
to taking any action that may affect the retail tenants, and (4) will ensure that the normal business
operations of the retail tenants are not disrupted by alterations or improvements to the premises
made by the CFPB. The occupancy agreement includes a base period of 20 years, which the
CFPB can opt to extend for two additional 5-year periods. The OCC can only cancel this
agreement if the CFPB fails to pay rent or comply with other material terms of the agreement.

In September 2013, the CFPB signed a memorandum of understanding (MOU) and a
reimbursable work authorization (RWA) with GSA for the renovation of the building. 7 The
MOU established responsibilities for GSA related to project management, procurement, design
review services, construction, building commissioning services, and contract administration for
the renovation of the building. The RWA is a written agreement between the CFPB and GSA
and was used to obligate funds for the headquarters renovation.


(1) The CFPB’s Budgeting and Approval Process

The CFPB has formalized policies for budgeting and funding, as well as for approving major
investments prior to obligating funds. 8 These policies outline the CFPB’s processes for
(1) formulating and approving the budget and financial operating plan (financial plan),
(2) requesting funds transfers from the Board of Governors of the Federal Reserve System
(Board), and (3) approving major investments. We found that the figures included in the
congressional request letter were included in the budget and financial plan and were published on


6.	 As noted in the Treasury OIG report, OCC’s Leasing Activities Conformed With Applicable Requirements;
    Issues With the Former OTS Headquarters Building Need to Be Resolved, the OCC Chief Counsel’s Office
    reviewed documentation related to ownership of the former OTS headquarters building, as well as applicable
    laws and regulations related to the transfer and ownership of the building, and concluded that the OCC owns the
    building. As of June 16, 2014, the U.S. Government Accountability Office is reviewing whether the OCC has
    the legal authority to retain the rent.

7.	 The MOU with GSA was not fully executed until October 2013 due to the partial closure of the federal
    government.

8.	 These policies were all approved and in effect by October 1, 2012.
The Honorable Patrick T. McHenry                           4	                                          June 30, 2014


the CFPB’s website. However, we noted that the approval of funding for the renovation was not
in accordance with the CFPB’s current policies for major investments. According to CFPB
officials, the CFPB saw this approval as a formality since the decision to renovate pre-dated
these policies.


Budget and Financial Plan

The CFPB’s current annual budget formulation process is informed by its strategic plan. Prior to
a new fiscal year, program offices submit budget requests and justifications to the Office of the
Chief Financial Officer (OCFO). The OCFO works with the program offices to finalize budget
requests. Program offices subsequently meet with the Director to justify budget requests before
the budget estimates are finalized. Once the estimates are finalized, the Chief Financial Officer
(CFO) prepares a decision memorandum recommending approval of the budget, which is routed
through the Chief Operating Officer to the Director.

Once approved by the Director, the budget becomes the financial plan. The Director provides
copies of the financial plan to the Director of the Office of Management and Budget. The Office
of Management and Budget does not, however, have oversight of CFPB’s budget process.

The financial plan outlines the budget authority for various expenses and staff. CFPB
management uses the financial plan to monitor financial obligations throughout the fiscal year
and to adjust spending as needs and priorities change. These adjustments can be made during
quarterly performance reviews or the formal midyear review process and are included in a
decision memorandum and authorized by the Director. The financial plan is then revised to
reflect these adjustments, but revised financial plans are not published on the CFPB’s website.
However, the CFPB does publish quarterly financial updates outlining large obligations. 9

As detailed in the Scope and Justification for Estimates section below, we noted that the
$55 million and $95 million budget amounts for the renovation for fiscal year (FY) 2012 and
FY 2013, respectively, were published in the CFPB’s public budget documents. Approvals
through decision memorandums were obtained for these amounts. In addition, we noted that the
CFPB revised its financial plan twice in FY 2013 to increase the amounts budgeted for the
renovation. In May 2013, the renovation budget was increased from $95 million to
$111.4 million, and in September 2013, it was increased to $145.1 million. 10 Approvals for these
increases were also documented via decision memorandums. In addition, an obligation of
$145.1 million for the building renovation was published in the FY 2013 fourth quarter financial
update. The $95 million and $111.4 million figures were not published in quarterly financial
updates because these amounts were never obligated.



9.	 Obligations exceeding $1 million are published in the quarterly financial updates.

10.	 This amount is included in the $150.8 million that is referenced in the congressional request letter, which also
     includes obligations for other renovation expenses detailed below.
The Honorable Patrick T. McHenry                       5	                              June 30, 2014


Funds Transfer Process

Per the Dodd-Frank Act, the CFPB’s operations are funded principally by transfers made by the
Board from the combined earnings of the Federal Reserve System. 11 Based on the CFPB’s
financial plan, the OCFO determines the amount of funds to be requested quarterly from the
Board and prepares a decision memorandum for the Director’s approval. Once approved, the
Director signs a funds transfer request letter, and the OCFO sends the letter to the Board. After
the Board transfers the funds, the OCFO allocates the funds to program offices based on the
approved financial plan.

We noted that on July 15, 2013, the CFPB included $143.0 million for its headquarters
renovation in its FY 2013 fourth quarter funds transfer determination. This amount was based on
an estimated RWA amount provided by GSA on June 26, 2013. The CFO stated that this request
was made to ensure that sufficient funds were available to execute the final RWA as required by
GSA. We also noted that during FY 2012 and FY 2013, the CFPB included amounts for ongoing
architecture and engineering (A/E) services in its funds transfer determinations.


Major Investment Approval Process

In addition to its budget approval and funds request processes, the CFPB has a formal process to
approve major investments. Major investments include those with an estimated value of
$500,000 or more, or a life cycle cost of $2.5 million or more over five years. These investments
must be reviewed by the CFPB’s Investment Review Board (IRB), an executive advisory body
chaired by the CFO. While a major investment does not need IRB approval prior to being
included in the budget, budgeted funds are not available for obligation or expenditure until the
IRB approves the investment.

To obtain IRB approval for major investments, program offices must complete an IRB business
case. The business case includes the following sections:

    •	 Alternatives analysis section. This section should include a description of alternatives, a
       comparison of the costs and benefits of alternatives, and the rationale for choosing the
       investment over the alternatives.

    •	 Financial section. This section should include all previous obligations for the

       investment, a five-year cost breakdown, the estimated lifetime cost, and cost

       assumptions.


    •	 Performance section. This section should identify lifetime goals and calculate expected
       lifetime return on investment.

The CFPB’s IRB charter and internal training documents provide specific guidance for making a
sound business case for an investment. This guidance outlines that a consideration of alternatives

11.	 The indexed FY 2014 funding is capped at $608.4 million per the Dodd-Frank Act.
The Honorable Patrick T. McHenry                           6	                                          June 30, 2014


is needed for a sound business case and should include a comparison of the costs and benefits of
alternatives and the rationale for the selected investment. The guidance also outlines the need to
show a return on investment when making a sound business case and stresses the importance of a
quantitative analysis. The IRB charter states that return on investment measures incorporate life
cycle costs, avoided costs or cost savings, productivity enhancements, or other financial
information relevant to determining the financial efficacy of the proposed investment.

Once the IRB approves the business case, the program office may submit a control sheet for
approval to obligate funds. While IRB approval is not required prior to including major
investments in the budget, it remains an important funding control.

We found that the investment requests for A/E services and the CFPB headquarters building
renovation were submitted to the IRB, 12 and the associated control sheets were approved. 13
However, the CFPB did not follow all internal IRB guidance when completing the business case
for the building renovation. For example, the CFPB listed alternatives 14 in the IRB business case
but did not complete any analyses of those alternatives. 15 In addition, the performance section
did not include any quantitative information or calculations related to return on investment. We
noted that the IRB approved the business case for the building renovation in September 2013
even though it was incomplete.

CFPB officials stated that the IRB approved the business case without this information because
funding approval was viewed as a formality given that the decision to proceed with the
renovation had already been made. We interviewed the former Treasury official who signed the
letter of intent in 2011 on behalf of the CFPB to occupy the building. This official stated that the
decision to renovate was made after the letter of intent was signed, but he did not know when or
by whom. As of June 23, 2014, the CFPB was unable to locate any documentation of the
decision to fully renovate the building. 16




12.	 The IRB business case for A/E services was submitted on May 30, 2012. The IRB business case for the
     renovation was submitted on July 23, 2013.

13.	 We noted that the $55 million and $95 million budget figures were never obligated and therefore were not
     reviewed by the IRB.

14.	 Alternatives listed in the business case included (1) moving the entire organization to another building large
     enough to accommodate the entire staff and (2) leasing multiple buildings to accommodate the entire staff.

15.	 CFPB officials provided us with an analysis of alternatives that an official stated was prepared in late
     summer 2013. The same official noted that this analysis was not used as part of the IRB process but was a
     ballpark analysis intended to make sure that the decision to renovate made sense. However, certain renovation
     cost elements, such as A/E costs and swing space, were not included. We are evaluating this analysis and will
     provide any relevant information in our subsequent report to the CFPB.

16.	 The CFPB is attempting to locate legacy documents. We will evaluate any documents provided and include
     relevant information in our subsequent report to the CFPB.
The Honorable Patrick T. McHenry                            7	                                           June 30, 2014


While the decision to renovate may pre-date the current IRB policies, these policies were in
place when the business case was submitted for funding approval. We cannot conclude whether a
complete analysis would have altered the decision to approve funding for the renovation.
However, without this analysis, the value of the IRB process as a funding control is diminished
and a sound business case is not available to support the funding of the renovation. In addition,
expected cost information is not available as a baseline to facilitate management of changes in
estimated renovation costs.


(2) Scope and Justification for Estimates

The request letter includes three CFPB-published cost figures associated with the renovation
project: $55 million, $95 million, and $150.8 million. As discussed below, we found that these
figures had significantly different scopes. The CFPB stated that the $55 million and $95 million
figures were used as estimates for budget purposes and that the $150.8 million figure was based
on a construction cost estimate developed for this renovation.


$55 Million Estimate

The $55 million figure was published in the CFPB’s FY 2013 Budget Justification, approved in
February 2012. This amount was based on 1 year of projected costs from a 10-year renovation
plan included in a building assessment of 1700 G Street NW commissioned by OTS, combined
with the CFPB’s rough estimate for A/E services. The building assessment was finalized in
November 2010 and included a 10-year phased renovation plan for Class B+ office space 17 with
estimated costs for each year that totaled $104.8 million. The CFPB developed the $55 million
budget number by rounding the building assessment’s year 1 cost estimate of $38,937,745 to
$40 million and adding the CFPB’s estimate of $15 million for A/E services.




17.	 Class B+ office space is the term used within the OTS building assessment to indicate the level of renovation
     priced for the 10-year renovation. The OTS building assessment does not define Class B+ office space, but it
     defines Class A and Class B. Both classes are typically characterized by high-quality design; high-end building
     materials; state-of-the-art voice and data technology; onsite support services and maintenance; and often
     includes full-service ancillary uses such as, but not limited to, a bank, a restaurant/coffee shop, a health club, a
     printing shop, reserved parking, etc. The minimum requirements for both include a central, interior lobby and
     access to suites from inside the building. Additional Class A minimum requirements are that the building have
     three stories, 15,000 square feet per floor, and LEED certification/sustainable strategies in place resulting in
     decreased energy use and high level of occupancy comfort. Additional Class B minimum requirements are two
     stories and 20,000 square feet per floor.
The Honorable Patrick T. McHenry                           8	                                          June 30, 2014


$95 Million Estimate

The $95 million figure 18 was published in April 2013 in The CFPB Strategic Plan, Budget, and
Performance Plan and Report. This amount was an estimated budget number developed
internally by the OCFO as a total cost of renovation that did not include A/E services and certain
contingencies intended to be paid for out of reserves. The CFO stated that the figure did not
consider class of space and was developed to illustrate a range of potential costs for a nonphased
renovation.


$150.8 Million Estimate

The $150.8 million figure was published in December 2013 in the Report of the CFPB Pursuant
to Section 1017(e)(4) of the Dodd-Frank Act. This amount was an aggregate of actual obligations
of $145.1 million for the renovation and approximately $5.5 million for A/E services. The
$145.1 million renovation estimate was prepared by GSA and included contingencies and GSA
fees not included in earlier estimates. The scope of the estimate included renovating to Class A
space, 19 using nonphased construction, and adding a seventh floor to the building. GSA prepared
this estimate using a cost modeling worksheet that uses historical data to generate costs for major
building systems based on the gross area of the project and major building systems quality levels.
Estimate documentation stated that this is GSA’s standard practice when developing budgets for
capital projects. GSA subsequently revised the $145.1 million estimate to $139.1 million to
reflect the CFPB’s decision to exclude construction of a seventh floor.

Table 1 lists several key differences in the $55 million, $95 million, and $150.8 million figures
associated with the renovation project, as noted in the request letter.




18.	 The request letter notes that the $95 million figure was greater than the annual construction and acquisition
     budget for all federal buildings. For information regarding GSA’s annual construction, acquisition, and
     renovation budget, see attachment 3.

19. The definitions of office class space vary by source. Classifications of office space are largely dependent on the
    size and location of the building, as well as the materials and design used. Potential cost differences exist
    between renovation plans for different classes of space, and our subsequent report to the CFPB will include
    assessments of these differences.
The Honorable Patrick T. McHenry                                9	                                              June 30, 2014


Table 1: Comparison of Cost Estimates
 Estimate
                                       $55 million                        $95 million                     $150.8 million
 specifications
 Month and year
                                      November 2010                     September 2012                        July 2013
 developed
 Source                         OTS building assessment                   CFPB OCFO                             GSA
 Approximate amount
 included for A/E                        $15 million                      Not included                       $5.5 million
 services
 Estimated cost of actual
                                         $40 million                       $95 million                     $145.1 million
 renovation
 Scope                            Year 1 of 10-year plan                Total renovation                  Total renovation
 Class                                       B+                          Not considered                           A
 Square feet                              490,092                           350,000                           512,000

                                                                                                      Total construction costs,
 Major cost elements             Year 1 construction costs           Total construction costs        construction management
                                                                                                       costs, and GSA fees

 Inclusion of 7th floor                      No                                No                                Yes
Source: OIG compilation based on CFPB information.


Note: None of the estimates include other costs, such as rent for swing space and costs associated with moving CFPB staff during
the renovation. We are evaluating these and other costs, and we plan to include that analysis in our subsequent report.




The U.S. Government Accountability Office states that cost estimates tend to become more
certain as projected costs are replaced by actual costs. 20 The A/E firm has prepared updated
estimates for the renovation that cannot be shared at this time due to source selection concerns. 21
Based on the CFPB’s assessed requirements as of June 5, 2014, we currently estimate all-in costs
to total approximately $215.8 million. These estimated all-in costs include the $145.1 million
obligated for construction, construction management, and GSA fees, as well as $70.7 million for
other items including A/E services, rent for swing space, costs associated with moving, and
additional renovation-related expenses. Our estimate for other renovation-related items is not
included in any of the estimated costs of actual renovation shown in Table 1. We will refine our
estimate of these costs based on the updated A/E and independent government cost estimates and
include any relevant information in our subsequent report to the CFPB.




20.	 U.S. Government Accountability Office, GAO Cost Estimating and Assessment Guide: Best Practices for
     Developing and Managing Capital Program Costs, GAO-09-3SP, March 2009.

21.	 The disclosure of this information prior to award of the construction contract could have an adverse effect on
     pricing. GSA will reconcile these estimates with an independent government cost estimate.
The Honorable Patrick T. McHenry                10                                   June 30, 2014


(3) The Use of Competitive Procedures for Major Contracts

We identified three major contracting efforts associated with the CFPB headquarters building
renovation: an A/E contract for design services, a construction management contract, and a
construction contract. In September 2012, the CFPB awarded the contract for A/E design
services, and we determined that competitive procedures were used in awarding this contract. Per
the MOU, GSA is responsible for procuring the construction management and construction
contracts for the building renovation. Although these two contracts had not been awarded as of
June 16, 2014, based on its initial solicitation activities, we determined that GSA plans to use
competitive procedures to award these contracts.


A/E Contract Procedures

While the CFPB is not required to follow the Federal Acquisition Regulation (FAR) by law, the
CFPB indicated that the A/E contract was awarded in conformance with the FAR. The FAR
outlines policies and procedures that are specific to acquiring A/E design services and issuing
associated public announcements; it also outlines other acquisition requirements. Acquisitions
for A/E design services are unique in that competition is based on technical factors rather than
price. An evaluation board evaluates and ranks firms based on technical qualifications, and the
contracting officer subsequently holds negotiations with the top-ranked firm. Price does not
become a factor until the negotiation phase of the acquisition.

In February 2012, the CFPB’s procurement office issued a solicitation for A/E design services,
stating that the contract would be in accordance with FAR subpart 36.6. The CFPB received
24 proposals in response to the solicitation, which were evaluated and ranked by the evaluation
board. The CFPB then invited the top six firms to give oral presentations and subsequently
ranked those firms. The final ranking was provided to the contracting officer, who entered into
negotiations with the top-ranked firm. These negotiations resulted in the award of the A/E
contract in September 2012 for a not-to-exceed amount of $12 million.

We noted that the CFPB issued a public announcement of its requirements for A/E services
allowing a 21-day response time, rather than the 30-day response time required by FAR 5.203.
Given that the CFPB received proposals from 24 firms, 6 of which were evaluated as most
highly qualified, we believe this did not limit competition. While the CFPB is not required to
follow the FAR, we believe this public announcement still met the policy intent of FAR 5.002
regarding competition.


Construction Management Contract Procedures

GSA plans to award the construction management contract using the best value tradeoff process
in FAR subpart 15.101-1. The best value tradeoff process is a competitive acquisition strategy
designed to permit tradeoffs between price and nonprice factors. Under this acquisition strategy,
the solicitation must identify the relationship between these factors used for evaluation of
proposals.
The Honorable Patrick T. McHenry                11                                   June 30, 2014


GSA officials stated that the solicitation for construction management services was issued in
February 2014 to nine firms against a national indefinite-delivery, indefinite-quantity
construction management contract. The solicitation specifies that proposals will be evaluated on
technical factors, which when combined are approximately equal to price. As of June 16, 2014, a
technical evaluation board consisting of GSA and CFPB personnel was in the process of
completing its evaluation report on the offerors’ proposals. Once the report is completed, GSA
will award a contract to the offeror whose proposal represents the best value.


Construction Contract Procedures

GSA plans to award the construction contract using the design-build two-phase selection process
described in FAR 36.3. The two-phase process includes a phase I request for qualifications
followed by a phase II request for proposals. During phase I, proposals are evaluated and the
government selects the most highly qualified offerors to submit proposals for phase II. The
phase II request for proposals results in the selection of the construction contractor whose offer
provides the best value to the government, and a firm-fixed-price contract will be used for the
construction contract.

In March 2014, GSA issued the phase I request for qualifications, which was open to both large
and small businesses. As part of phase I, GSA invited potential offerors to attend a preproposal
conference, and 43 companies attended. As of June 16, 2014, the evaluation board had
completed its review of phase I proposals and prepared a source selection evaluation report. This
report included the evaluation board’s selection of the most highly qualified offerors and is
currently undergoing a legal review at GSA. After the report is approved, GSA will issue the
phase II request for proposals to the most highly qualified offerors.


Closing

Thank you for your interest in the work of the OIG. If you have questions on this or any other
matter, please contact me at 202-973-5000 or John Manibusan, Assistant Congressional and
Media Liaison, at 202-973-5043. We are providing a similar letter to the Ranking Member of the
Subcommittee on Oversight and Investigations.

Sincerely,




Mark Bialek
Inspector General

Attachments
The Honorable Patrick T. McHenry                 12                                   June 30, 2014


                                                                                     Attachment 1

                                   Scope and Methodology

Our scope included (1) the CFPB’s budgeting and approval process for the renovation; (2) the
$55 million, $95 million, and $150.8 million renovation figures outlined in the request letter; and
(3) the competitive procedures for the three major contracting efforts associated with the
renovation. We conducted our work from February 2014 to June 2014.

To evaluate the budgeting and approval process, we reviewed the CFPB’s internal policies and
processes for (1) formulating and approving the budget and financial plan, (2) funds transfers
from the Board, and (3) approval of major investments. We met with cognizant CFPB officials
and reviewed relevant documentation with respect to the CFPB’s headquarters renovation project
to understand how changes in estimates for the renovation flowed into the CFPB’s budget and
financial plan. We reviewed the CFPB’s internal decision memorandums, the related funds
transfer requests sent to the Board, and the Board’s funds transfer acknowledgement letters. We
reviewed the CFPB’s IRB charter and internal IRB guidance to understand the process and
specific requirements for completing business cases for major investments. We also evaluated
IRB business cases and respective control sheets related to the CFPB’s headquarters renovations.
We interviewed the former executive in charge of the Securities and Exchange Commission’s
Office of Administrative Services, as well as the former Treasury official who signed the letter of
intent in 2011 on behalf of the CFPB to occupy the building.

To evaluate the figures outlined in the request letter, we reviewed the scope and the justification
for the differences. We also interviewed CFPB officials, including the Chief Operating Officer,
the CFO, and the Chief Administrative Officer, to obtain additional information regarding the
figures.

To evaluate the competitive procedures, we reviewed the contract file for the A/E design services
contract and the solicitation documents for the construction management and construction
contracts. We also reviewed relevant parts of the FAR. We interviewed the contracting officer
and two technical evaluation board team members for the A/E design services contract. We also
interviewed GSA personnel, including the project manager for the CFPB’s headquarters
renovation project and the contracting officer for the construction management and construction
contracts.

We reviewed relevant reports from Treasury OIG, as well as our March 31, 2014, report,
Opportunities Exist for the Board to Improve Recordkeeping, Cost Estimation, and Cost
Management Processes for the Martin Building Construction and Renovation Project and our
October 22, 2013, report, Observations and Matters for Consideration Regarding the CFPB’s
Annual Budget Process. We also reviewed GSA’s annual construction, acquisition, and
renovation budget.
The Honorable Patrick T. McHenry                           13                                             June 30, 2014


                                                                                                        Attachment 2

                                            Timeline of Major Events

July 21, 2010 Dodd-Frank Act created the CFPB
                                                                Nov. 10, 2010 OTS building assessment containing
                                                                renovation estimates finalized
Jan. 4, 2011 CFPB signed letter of intent to occupy
1700 G Street NW
Feb. 18, 2011 Treasury press release and Special Advisor
announcement of CFPB’s permanent headquarters at
1700 G Street NW issued
July 21, 2011 CFPB and OCC reached interim agreement
for use of 1700 G Street NW
Oct. 1, 2011 CFPB moved into 1700 G Street NW
Jan. 4, 2012 CFPB Director appointed
                                                                Feb. 2, 2012 $55 million figure approved in CFPB’s
                                                                FY 2013 Budget Justification
Feb. 8, 2012 GSA delegated OCC authority to charge
rent
Feb. 8, 2012 Solicitation issued for A/E contract
Feb. 17, 2012 CFPB entered into occupancy agreement
with OCC
Sept. 7, 2012 A/E contract awarded
                                                                Apr. 2013 $95 million published in The CFPB Strategic Plan,
                                                                Budget, and Performance Plan and Report
                                                                May 17, 2013 CFPB financial plan revised from
                                                                $95 million to $111.4 million
                                                                June 18, 2013 CFPB CFO testified on renovation budget
                                                                July 12, 2013 GSA issued $145.1 million renovation
                                                                estimate
July 16, 2013 CFPB Director confirmed

                                                                July 23, 2013 IRB business case for renovation submitted
                                                                Sept. 3, 2013 CFPB financial plan revised from
                                                                $111.4 million to $145.1 million
Sept. 24, 2013 CFPB and GSA finalized RWA
Oct. 18, 2013 CFPB and GSA MOU fully executed

                                                                Dec. 13, 2013 GSA issued revised $139.1 million
                                                                renovation estimate
                                                                Dec. 30, 2013 $150.8 million published in Report of the
                                                                CFPB Pursuant to Section 1017(e)(4) of the Dodd-Frank Act
The Honorable Patrick T. McHenry                              14                          June 30, 2014


                                                                                         Attachment 3

             GSA’s Annual Construction, Acquisition, and Renovation Budget

The request letter states that the CFPB’s $95 million budget figure for the renovation was greater
than the annual construction and acquisition budget for all federal buildings. We reviewed
GSA’s budgeted amount for construction and acquisition as well as for repairs and alterations,
which include renovations, over the most recent 10-year period. We noted that the construction
and acquisition budgeted amount was $56 million for FY 2013. However, this figure did not
include $494.8 million for repairs and alterations and was an anomaly for the 10-year period.
Table 2 below outlines the budgeted amounts for construction and acquisition and for repairs and
alterations.


Table 2: GSA’s Budgeted Amounts
                           Construction and               Repairs and
 Fiscal year                                                                 Total       Rounded total
                             acquisition                  alterations
 2006                         $640,317,000             $1,029,165,000   $1,669,482,000     $1.7 billion
 2007                          690,095,000                866,194,000    1,556,289,000      1.6 billion
 2008                          615,204,000                804,483,000    1,419,687,000      1.4 billion
 2009                          620,119,000                692,374,000    1,312,493,000      1.3 billion
 2010                          657,637,000                496,276,000    1,153,913,000      1.2 billion
 2011                          676,362,000                703,467,000    1,379,829,000      1.4 billion
 2012                          839,642,000                868,902,000    1,708,544,000      1.7 billion
 2013                           56,000,000                494,768,000     550,768,000    550.8 million
 2014                          816,167,000              1,302,382,000   2,118,549,000       2.1 billion
 2015                          745,449,000              1,256,738,000   2,002,187,000       2.0 billion
Source: GSA budget justifications, FY 2006 through FY 2015.
